<html>
<title> - OVERSIGHT HEARING ON THE ELECTION ASSISTANCE COMMISSION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
        OVERSIGHT HEARING ON THE ELECTION ASSISTANCE COMMISSION

=======================================================================







                                HEARING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 17, 2004

                               __________

      Printed for the Use of the Committee on House Administration
















                 U.S. GOVERNMENT PRINTING OFFICE

95-896                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail 
Stop SSOP, Washington, DC 20402-0001















                   COMMITTEE ON HOUSE ADMINISTRATION

                        BOB NEY, Ohio, Chairman
VERNON J. EHLERS, Michigan           JOHN B. LARSON, Connecticut
JOHN L. MICA, Florida                  Ranking Minority Member
JOHN LINDER, Georgia                 JUANITA MILLENDER-McDONALD, 
JOHN T. DOOLITTLE, California            California
THOMAS M. REYNOLDS, New York         ROBERT A. BRADY, Pennsylvania

                           Professional Staff

                     Paul Vinovich, Staff Director
                George Shevlin, Minority Staff Director



















                     ELECTION ASSISTANCE COMMISSION

                              ----------                              


                        THURSDAY, JUNE 17, 2004

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:05 a.m., in Room 
1310, Longworth House Office Building, Hon. Robert W. Ney 
(chairman of the committee) presiding.
    Present: Representatives Ney, Ehlers, Linder, Doolittle, 
Larson, Millender-McDonald, and Brady.
    Also present: Representative Hoyer.
    Staff present: Paul Vinovich, Staff Director; Matt 
Petersen, Counsel; George F. Shevlin, Minority Staff Director; 
Thomas Hicks, Minority Professional Staff; Matt Pinkus, 
Minority Professional Staff; and Charles Howell, Minority Chief 
Counsel.
    The Chairman. The committee will come to order. The 
committee is meeting today to hear from all four members of the 
Election Assistance Commission regarding the implementation of 
the Help America Vote Act of 2002.
    It has now been 20 months since the Congress voted 
overwhelmingly in favor of, and President Bush signed into law 
the Help America Vote Act, known as HAVA.
    I am proud to have been the chief architect of what I think 
was a very historic bipartisan legislation. Legislation that 
holds the potential to fundamentally improve the health of our 
Nation's democracy and strengthen the right of every eligible 
citizen to cast an accurate ballot, and have that ballot 
counted--providing much needed resources to States and 
localities in putting into place safeguards to protect the 
integrity of our elections process.
    HAVA will help ensure that our democratic republic has 
election systems in which its citizens can have confidence and 
pride. As we have always said, we make it easier to vote and 
harder to cheat.
    At the core of HAVA are three primary components. There is 
much more to the bill, but, first, HAVA establishes a 
bipartisan, four-member Federal agency: the Elections 
Assistance Commission, known as the EAC, whose purpose is to 
help States and localities implement HAVA's provisions by 
developing voluntary standards and guidance, issuing studies 
and reports on various election-related issues and serving as a 
clearinghouse for best-election-administration practices.
    I think that the motto when we created it is that we are 
here from the government and we are here to help. I think that 
the energy level and the idea that was crafted into the written 
part of the law is becoming reality through the citizens that 
are serving on this commission. I think that has been the tone 
of the law and the tone of our commissioners.
    Second, HAVA establishes new voter rights, providing for 
second-chance voting, provisional ballots and enhanced access 
for individuals with disabilities, specifies new voting system 
standards, obligates first-time voters who register by mail to 
provide some form of identification before casting their 
ballots, requires each State to implement a computerized State-
wide voter registration database, and sets requirements for 
certain voting information to be publicly posted at every 
polling place.
    And, third, HAVA authorizes $3.86 billion in election 
reform spending to assist States and localities in meeting 
their new obligations under this law. This is the first time 
that Federal funds have been made available to assist State and 
local Governments in shouldering their election administration 
responsibilities.
    So far, Congress has appropriated roughly $3 billion out of 
that total amount authorized by HAVA. The EAC is responsible 
for distributing the bulk of these funds, and there is still 
some more to go and we are always working toward making sure 
this is not an unfunded Federal mandate. Again, there are a few 
people I definitely want to publicly thank for that.
    Through the Help America Vote Act, I think we have achieved 
a landmark legislative achievement in which Members of Congress 
may continue to make tremendous strides with legislation we can 
take pride in. We also realize that HAVA's passage represented 
a beginning, not an end.
    Once President Bush put his signature on HAVA, the heavy 
lifting began. We are therefore privileged, I believe today, to 
have with us all four EAC commissioners. I want to thank all 
four of you for being here to provide us with details on the 
heavy lifting that is currently going on, because you all are 
doing that heavy lifting. Please give us your thoughts, your 
comments, positive and negative, whatever you want to say 
today, so that we can have a review.
    In the half-year since the commissioners were installed in 
their current position, they have been confronted with a large 
number of tasks. For instance, the EAC has been responsible for 
distributing approximately $2.3 billion in payments to the 
States to assist them in meeting the requirements. Moreover, 
the EAC has had to deal with the issues of electronic voting 
systems security, which has been the subject of a great deal of 
media attention.
    I will also note that we will have another hearing that 
will deal with a wide variety of issues, including electronic 
voting systems security and other issues we need to talk about 
with HAVA and how it is implemented. So I expect advocacy 
groups, people with interest, to be here as we will schedule it 
with our ranking Member's office in a short period of time.
    The first public hearing conducted by the Commission 
related specifically to that issue--the voting systems 
security. And the chairman recently issued a series of 
recommendations for maintaining the integrity of electronic 
voting systems. We look forward to receiving more information 
about that issue and of course also during this hearing.
    We are also very interested in hearing how well States and 
localities are doing in implementing the HAVA requirements that 
went into effect this year, as well as those that will go into 
effect in the 2006 election cycle. Thus, it is our hope that 
today's hearings will provide an opportunity for the Members of 
this committee to become more informed about the current status 
of HAVA's implementation as well as to learn more about the 
issues and challenges currently facing the EAC.
    And in summing up before I close--and the timing of 
Congressman Hoyer, the Democratic Whip, is very perfect. 
Actually, I was going to make some comments and tell you I said 
good things, but now you will be here to hear them.
    But I said earlier I wanted to conclude with something. 
This was a bill, frankly, that Congressman Hoyer approached me 
on and said, ``We need to do something,'' and everybody talked 
about the hanging and dimpled chads that were talked about.
    This--it looked at that issue, but it went far beyond that. 
It became a piece of legislation that--I don't want to miss 
anybody, but it just, I think, generated into a wonderful 
situation.
    My secretary of state, Ken Blackwell, got together with 
other secretary of states, such as Secretary of State Priest, 
and many others were involved; Connie McCormick on the Board of 
Elections, and a lot of other people involved with advocacy 
groups. They came forward to bring their input to the table, 
groups that cared about voting, groups that cared about 
disenfranchisement.
    The issues went far, far, far beyond a hanging chad, and 
Congressman Hoyer had the diligence. He worked with us. 
Congressman Blunt was another Member that put a lot of time 
into it, and on an overwhelming bipartisan basis, Congressman 
Conyers was involved. We passed this on the floor of the House, 
went to the conference committee, and through Senator Chris 
Dodd, Senator McConnell, Senator Bond, and other Members of the 
Senate, we finalized this bill.
    It was a bill that had a real conference committee. 
Congressman Hoyer can tell you that. I mean, we really had one 
where we sat until 5 o'clock in the morning. Members 
participated and the staffs worked diligently, and some people 
said, ``Why it is taking so long?'' It was a very complicated 
bill, and we didn't want to get it wrong. We envisioned, 
without knowing what your names would be, what the Board would 
be like. We felt that the way the Board was structured, you 
could put decent people onto it, it could be appointed, and we 
could begin this process.
    I want to thank Congressman Larson for his support of that 
bill but also, as ranking member, for his ongoing support to 
work with us.
    I think this hearing is important, and the next hearing we 
are going to have will also be important. This is our ability 
as a Congress to listen to what you have to say, to see how the 
bill is progressing, to see where we need to step in or where 
we need to not interfere, what we can do, and basically how 
everything is going.
    I am going to stop with that and yield to our ranking 
member. But, again, I want to thank all of the Members of our 
committee for being here, Congressman Larson for following 
through with this, as his responsibility as ranking member to 
oversee Federal election law.
    But, again, we couldn't be here if it wasn't for 
Congressman Hoyer. He was our partner on this committee for 
quite a while, on this bill, led the charge, had the integrity, 
and wanted to do what was right. That is why I think it was a 
good model with a great working relationship on this bill. I am 
just very pleased to be here.
    With that, I will yield to our ranking member, Mr. Larson.
    Mr. Larson. Thank you, Mr. Chairman. Let me, at the outset, 
associate myself with your remarks and add to the accolades, 
first and foremost, to recognize the enormous legacy that HAVA 
has created. And it is a demonstration of what bipartisan 
cooperation can yield. Both you and our distinguished 
Democratic whip deserve a tremendous amount of credit for the 
way in which you marshaled the resources, the energy and the 
votes to make this come to fruition.
    It is a hallmark, in terms of what it means and how we can 
function and operate as an institution. More importantly, I 
can't think of a more important and essential function than 
securing the franchise of our citizens.
    I would also like to acknowledge all of our distinguished 
panelists. Indeed, you know, we are pinning our hopes on your 
great integrity, your zeal, and your desire to carry out the 
mandate of HAVA.
    And that is why, Mr. Chairman, these hearings are so 
vitally important. And again, I commend you. I know of your 
deep concern to make sure that we have a body of law that is 
functional and working. And I have written remarks that I would 
like to submit for the record.
    [The statement of Mr. Larson follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairman. Without objection.
    Mr. Larson. I am very interested in hearing the testimony 
from the commissioners.
    I am also very concerned about a couple of articles that 
appeared in the New York Times and editorials that I have read 
in the past week. But I would like to submit them for the 
record.
    [The information follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairman. Without objection.
    Mr. Larson. And also a response by the American Association 
for the People of Disabilities.
    [The information follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Larson. And at some point, I would like to hear from 
the commissioners, if you are familiar with those articles, to 
get your personal response.
    I want to say that I have personally met with Members of 
the civil rights and disabilities communities and heard from 
concerned citizens around the country pertaining to voting 
issues.
    I would like to hear clarification from our Commissioners 
on where the EAC is on making sure that this and future 
elections run as smoothly as possible. The Nation obviously is 
watching very closely. And I am concerned at where the 
commission is on providing to the States best practices on 
provisional ballots, the new voter ID requirements, voter 
registration lists, absentee ballots, military and overseas 
voters and absentee ballots as well.
    I also hope to hear from the commissioners concerning 
funding issues, particularly in the area of research and 
development of new voting equipment and procedures.
    One of the hallmarks of HAVA is that it does not mandate 
voting equipment. We don't know what technology tomorrow might 
bring. Today's cutting-edge technology could be tomorrow's 
museum piece.
    I am further interested in whether or not there is 
sufficient funding for your partnership with the National 
Institute for Standards and Technology and for the HAVA 
mandated reports and studies and equally as important, the 
funding levels of the EAC itself.
    I want to thank you, Mr. Chairman, again for conveying this 
important hearing. I want to thank our distinguished majority 
whip, who I know has a deep concern and vested interest in this 
issue as well, for availing himself and joining us this morning 
as well. And I look forward to the testimony from our 
commissioners.
    The Chairman. Well, I thank the ranking member.
    Also the ranking Member has asked for unanimous consent 
that Congressman Hoyer be able to participate in this hearing. 
Without objection. Congressman Hoyer is more than welcome to 
participate in this hearing.
    Any opening statements?
    Mr. Doolittle. No.
    Mr. Linder. No.
    Mr. Brady. Yes, Mr. Chairman. Just briefly.
    I guess I need to note for the record, I am a party 
chairman in the City of Philadelphia, have been for the last 20 
years. My main responsibility on election day is any and all. 
Anything that has anything to do with election day operations, 
I am responsible for it.
    That includes poll workers, election day workers, a place 
to poll, a physical place where the machines can go and the 
responsibility for getting the machines there and, at the end 
of the day, responsibility to make sure that they are totaled 
up and the votes that were cast were cast properly and for the 
right person.
    My main interest is in fairness. And probably more so than 
that, a lot more so than fairness, but also is accessibility to 
every voter that has a right to vote, that should have a right 
to vote, make it as easy as possible for them to vote.
    In our modern day, with the voting process as it is, we 
don't get enough participation as it is. We are not like in 
some countries, where they get 100 percent participation, or 
most, where they get lined up to vote. We have to--we have a 
problem with people, when they register, to actually get them 
out to vote and vote for whoever they want to vote for.
    And I think the main thing you need to make much more 
easier--I understand that there are some fail-safes that we 
have to put into place to make sure that nothing happens, that 
the vote is done accurately and, again, not to have what my 
good chairman had made reference to, the hanging chads or the 
pregnant chads.
    I didn't even know what a chad was until the Florida 
election. But we just need to make sure that--not to be so 
zealous in making sure that we hinder people when they come out 
to vote, make sure it is accessible. We want to let them know 
that we are there to try to make sure that they can have their 
vote cast properly the way that they decide to have it done.
    I thank the Chairman and ranking Member for having this 
hearing, bringing it to light, and letting people know that we 
are interested, that we do want to make sure that it is done in 
a bipartisan fashion, and it is done in fairness.
    And as always, I would like to thank Steny Hoyer for all of 
his participation, having hearings. We had hearings in the City 
of Philadelphia, which he conducted, to make sure that all of 
our citizens that are eligible can vote in a proper way. So 
thank you.
    The Chairman. Thank you.
    Other opening statements?
    Mr. Hoyer. Mr. Chairman, first of all, thank you.
    I want to thank the committee for giving me this 
opportunity to participate with you. I enjoyed very much my 
service with Bob Ney. Bob has indicated that we considered this 
in a bipartisan fashion. That was absolutely correct.
    In fact, in the last Congress, the speaker and Leader 
Gephardt both pointed to this as the best symbol of bipartisan 
working together, both in the House, particularly in the House, 
and I think in the Senate as well.
    It was a historic bill. It was a historic civil rights 
bill. It was a historic federalism bill. From 1789 to 2002, 
essentially the Federal Government did not contribute at all to 
the management or conducting of Federal elections. Clearly, the 
States and localities funded their own elections, but they also 
funded our elections.
    As a result of it being easy to defer technological 
advances in the election process and expenditures for election 
administration, to some degree they became the stepchild of 
State and local Government funding. One of the things that HAVA 
did was to refocus the necessity, and the 2000 election, of 
course, focused us, not just in Florida but throughout the 
country, on the necessity of having a system in what we believe 
is the world's greatest democracy that assured its citizens of 
access and accuracy and confidence in their vote.
    We made a number of changes. And, Mr. Chairman, I want to 
thank you for having this hearing and subsequent hearings. In 
fact, Mr. Larson and Mr. Brady, and Mr. Linder and Mr. 
Doolittle and other Members of this committee--Mr. Ehlers is 
not here, but he made a very valuable contribution to HAVA in 
ensuring that NIST was a partner in the process of determining 
not what we would mandate but the advice and counsel that we 
would give to States and localities on the technology that was 
available to run elections.
    I believe that the commission, although for no fault of 
your own, you started very late, has been very vigorous in the 
undertaking of your responsibilities. I am working with Mr. Ney 
and Mr. Istook and Senator McConnell and Senator Lott to assure 
that we get you some more money pretty quickly. And Mr. Ney and 
I have been talking about that.
    But I want to congratulate you for undertaking your 
responsibilities with a great deal of vigor and a great deal of 
responsibility.
    Mr. Chairman, I had the opportunity to read your statement 
that you made in Maryland. I talked to Linda Lamone about that 
statement. I think you made some very good suggestions.
    We obviously have some controversy. We have some 
controversy in California and throughout the country about the 
new technology, the DREs, the computer voting, touch screens 
and whether or not we can assure the fact that they will be 
credible reporters of the decisions that citizens make. That 
obviously is an important question for us to resolve so the 
confidence of voters can be established.
    In addition, one of the very important things we did, Mr. 
Chairman, as you know, is that more people were disenfranchised 
because of registration problems than were disenfranchised 
because of technical difficulties in the voting process.
    And one of the things we have done, as you know, is to 
provide for Statewide registration with local election 
interface, critically important. That will not be accomplished 
by this election. And, indeed, technological change will not be 
accomplished. But, we have a great responsibility to act as 
vigorously as possible so that, in the next few months, come 
September there will be a much greater confidence level in the 
media, in the groups, with the disabilities group to assure 
that they have access, which has been denied to them.
    One of the hallmarks of the American democracy is the 
secret ballot. And too many of those with disabilities were 
denied that secret ballot. Technology now allows that. And we 
need to assure it.
    So, Mr. Chairman, thank you very much for giving me this 
opportunity to participate with you.
    Commissioners, thank you very much for pursuing this. And 
together, I think we will see that HAVA resulted in a much 
better system in which our citizens much greater confidence. 
Thank you.
    The Chairman. I thank the gentleman.

STATEMENTS OF HON. DeFOREST B. SOARIES, JR., CHAIRMAN, ELECTION 
 ASSISTANCE COMMISSION; HON. GRACIA HILLMAN, VICE CHAIR; HON. 
 PAUL DeGREGORIO, COMMISSIONER; HON. RAY MARTINEZ, COMMISSIONER

    The Chairman. We will get to why we are here today, first 
by introducing Commissioner DeForest B. Soaries, current 
chairman of the EAC.
    Commissioner Gracia Hillman, current EAC vice chair. 
Commissioner Paul DeGregorio, Republican Member of the EAC, and 
Commissioner Ray Martinez, Democratic Member of the EAC.
    We will start with Commissioner Soaries.

           STATEMENT OF HON. DeFOREST B. SOARIES, JR.

    Mr. Soaries. Thank you so much, Mr. Chairman, and ranking 
Member, and Members of this committee, Mr. Hoyer, for this 
opportunity to come and share with you an update on the work of 
the EAC.
    We have submitted a 20-page written testimony, and in the 
interests of time, I will not read that to you. We have many 
appendices. I will simply summarize the contents of that 
testimony, allow my colleagues to have introductory remarks and 
then dedicate as much time as you have to answering specific 
questions about our work.
    The presence of all four commissioners should represent to 
you our commitment and respect for this body, for this 
committee, for your leadership, Mr. Chairman, and for this 
process.
    Let me begin by thanking you, Mr. Chairman, for your 
leadership, along with your partnership with Mr. Hoyer and his 
leadership on the creation of the Help America Vote Act of 
2002. We have discovered that throughout this country, peoples' 
hopes have been lifted and expectations have been expanded as a 
direct consequence of this legislation.
    When people ask the question, what is different in America 
between 2000 and 2004, the critical answer lies in the language 
of the Help America Vote Act of 2002. And so thank you on 
behalf of the country for this great product.
    In our written testimony, we summarize some of the 
highlights of our having gotten started. As you know, we had 
the unenviable task of creating a brand new agency during a 
year when we have a Federal election. And I need not go into 
the details as to the complexity of that matter, but the 
testimony describes the process that we engaged in hiring some 
staff, in publishing State plans, in securing detailees from 
other agencies to assist us in our work, meetings with civil 
rights groups, coordinating functions with the Department of 
Justice, the Department of Health and Human Services, the 
Office of Management and Budget. Certainly we received 
administrative support from the General Services 
Administration. And we even had meetings at the Environmental 
Protection Agency, just taking help from where it existed to 
craft our strategy and our process to get about our mission.
    We also describe to you in our written testimony what we 
consider to be accomplishments about which we are quite proud. 
We visited over 20 primary elections personally as 
commissioners. We held a public meeting in March where we 
conducted the first business of the commission.
    We created our budget for 2005, while we were still 
negotiating our budget for 2004, and appeared before our 
subcommittee in this body to justify our budget for 2005. We 
were able to manage the transfer of the Office of Election 
Administration from the FEC to the EAC. We were able to get up 
an office space not far from here. We were able to launch our 
website. We issued a Human Factors Report, which we would like 
to discuss in whatever detail you would like to today.
    And we held two public hearings, the first on the use and 
reliability and security of electronic voting devices, and the 
second on punch card and lever machine voting devices, which 
will be used throughout the country in 2004, and on provisional 
ballots.
    Our written testimony also has new information, information 
that has not been disclosed before, and we would like to focus 
just for a minute on what that is.
    In the first category are three things that are germane to 
our generic mission under HAVA. The EAC has some deadlines and 
some responsibilities that are very explicit in HAVA, and I 
would like to share with you three updates on those 
responsibilities.
    In the first instance, it is our task, after having 
published the State plans and received 45 days of comment as a 
result of that publication, to distribute Title II funds to the 
States to assist them in a manner that Mr. Hoyer described.
    As of today, 25 States have self-certified their compliance 
with HAVA, consistent with the language of the law, and today, 
I am happy to announce to you that we are in the process of 
releasing $861 million to 25 States, and they should receive 
those checks by next week.
    The second responsibility we have under HAVA is the 
creation of standards and advisory boards, which will give an 
inclusive aspect to the development of the standards that 
ultimately will guide the States in the use of voting 
equipment.
    The Standards Board is now in place. That board under HAVA 
has 110 members, and the first meeting will be in Houston, 
Texas, on the 29th of this month.
    The Advisory Board consists of 37 persons under HAVA. That 
board is in place, and that board will have its first meeting 
in Houston, Texas on June 28th, of this month.
    The third update I would like to provide is pursuant to 
another committee that is very critical to the outcome of our 
policies, that relates to the use of any particular voting 
device, and that is the Technical Guidelines Development 
Committee.
    HAVA assigns to this commission the responsibility of 
creating standards that become guidelines for the States to use 
in Federal elections. The Technical Guidelines Development 
Committee is a very specific committee under HAVA with 
representation from various bodies. I am happy to report today 
that that committee has now been appointed, and that committee 
will have its first meeting in the next 30 days.
    And so those developments position the commission for its 
long-term mission that hopefully will result in the entire 
country reflecting practices in Federal elections that were 
envisioned by HAVA.
    But as we began our work, it was obvious to us, based upon 
meetings that we had and, frankly, based on commonsense, that 
we still had to figure out what kind of impact we could have 
this year, in November.
    HAVA assumed in its origin that, by 2007, that its vision 
would be fully manifest in the way the country operated. But 
commonsense said that people needed to know, and we were 
required to respond to the question, what impact can you make 
as an EAC on this November's election?
    There are three areas broadly that our report includes and 
we would like to discuss today. One has to do with the best 
practices or what we call our HAVA tool kit. There are certain 
things that will be different this year than ever before. And 
we are now in our third draft of completing best practices as 
it relates to both HAVA mandates, provisional ballots, ID 
requirements, signage in the polling place and the complaint 
procedure, so that we can distribute that information by mid-
June to every election official and every community and 
advocacy group in the country, to ensure that we are on the 
same page as it relates to HAVA requirements in 2004.
    The best practices focus primarily on equipment usage. And 
its not our job to tell jurisdictions what equipment to use, 
but it is our job to give jurisdictions guidance on the use of 
those products. We will have, by the time we meet with our 
Standards Board, a final draft for the Standards Board to 
review, that we can distribute throughout the country to ensure 
that local jurisdictions have as much information as they can 
on the use of the variety of voting devices.
    We also are concerned about the issue of poll workers. We 
know that, beyond some of the technical issues, we need about 2 
million people to work on election day for a Federal election. 
We also know that, in jurisdictions around the country, we have 
information that suggests that we are understaffed.
    It is very difficult to recruit poll workers. We have an 
aging population of poll workers. The complexity of voting 
devices makes it even harder for the existing poll workers, and 
we just don't have enough numbers. We have begun talking to 
national corporate leaders. We have begun talking to national 
organizations, fraternities, sororities and others, and we are 
preparing now to roll out a national poll worker initiative 
where, for the first time in the history of the country, the 
Federal Government is helping local jurisdictions recruit and 
track poll workers that they can train to work on election day.
    We have on our website today an opportunity for any 
American to sign up through their local State election director 
to be a poll worker in their jurisdiction. We think that will 
help the small districts, like yours, Mr. Ney, that only need a 
handful of poll workers, and larger, like Los Angeles that 
requires almost 25,000 poll workers.
    The college program, that we should have some real sense of 
timing about tomorrow, we have a critical meeting tomorrow on 
the Help America Vote Act College Program, where we think we 
can partner with organizations that already have access to 
mobilizing college students to link into this November, 
sufficient to give college students an opportunity to work on 
the polls in November.
    Finally is the issue of security. We have received probably 
more mail and more phone calls on the issue of security for 
electronic voting devices than we have received on any other 
subject. I have proposed, as a result of conversations with 
commissioners, meetings with groups, research and the public 
hearing we had on May 5th, a strategy that appropriately 
positions this commission to address the issue of security in a 
proactive way.
    I have to remind the committee, Mr. Chairman, that when we 
talk about security and electronic voting devices, we are not 
attempting to fix a problem that has been demonstrated to 
undermine any previous election, rather we are attempting to 
prevent problems that we acknowledge exist on a potential basis 
due to vulnerabilities that have been discovered.
    In that sense, we think there are some proactive steps we 
can take, one of which is asking vendors to register their 
software at the National Software Reference Library. Another is 
providing--from the vendors to the local election officials--
the source code that can be analyzed and verified as being 
authentic. Another is by asking every jurisdiction to do 
something that they have never done before to enhance security, 
in some districts, it is simply the chain of custody for the 
equipment.
    We have met with the Department of Justice, because we want 
to remind people that tampering with elections is a Federal 
crime, and the Justice Department has assured us that they will 
work with us to prosecute people who have been identified as 
suspects in tampering with Federal elections.
    And the final thing we want to do is to broadly publish the 
fact that we will collect data on election day that identifies 
problems in voting devices. What that does is acts as a 
deterrent to ensure that vendors take more seriously the fact 
that we will know about malfunctions, but also for the first 
time, provide through our clearinghouse function a central 
repository of information that gives us some sense of which 
machines and which devices are working well or not.
    So I think that we have positioned ourselves for the long 
term mission of HAVA to get us where HAVA intended to go and 
the immediate needs to get us through this Federal election in 
a way that gives the American people confidence that the 
outcome has integrity.
    And so thank you, Mr. Chairman, for this opportunity to be 
here today to report to you and other Members the progress that 
we have made, the plans that we have made, and I would like now 
to call upon my colleagues to give their opening remarks and 
then answer any questions that you have.
    [The statement of Mr. Soaries follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairman. I assume we will go to the vice chair.

                STATEMENT OF HON. GRACIA HILLMAN

    Ms. Hillman. Thank you. Good morning. I join my colleague 
in thanking you for the opportunity to be here this morning to 
talk about the work that we have been doing, the challenges 
that we have faced, the accomplishments we have made, what we 
see needs to be done short term and long term.
    I will focus my remarks this morning on some of the 
challenges we faced getting started and talk a little bit more 
about the Standards Board and the Board of Advisors. And I 
think that any expectations of the Election Assistance 
Commission have to be within the reality of our circumstances, 
that being, when we were first designated as appointees for the 
commission, naively--and I say naively from lack of 
information--we focused on what the bill authorized and the 
authorized numbers. And we were ever so thrilled to note that 
there would be sufficient funds for us to do research and 
conduct the operations of the commission.
    We were very mindful that we would be somewhat late in 
being appointed, but felt that we could catch up quickly. And 
it was a rather rude awakening when we realized that our 2004 
appropriation was only $1.2 million, and we really had been 
focusing on the bigger number of the amount of money that it 
turns out were requirements payments to the States. And so very 
quickly when we took office, we realized that we were going to 
have to do some very careful and strategic planning in order to 
get ourselves organized and to address the issues that were 
immediately in front of us, the needs of States, for us to move 
quickly so they could get their requirements payments to 
implement their plans, as well as to accept the responsibility 
of the transfer of the Office of Election Administration from 
the Federal Election Commission.
    And so in the end, we were able to get some things done 
between January and March because the Federal Election 
Commission was willing to give us temporary office space and 
because we worked very closely with General Services 
Administration to be able to get a rent waiver so that we could 
occupy offices.
    Quite candidly, we were faced with the decision of, do we 
hire staff or do we rent office space? And so, what good is it 
to have staff and no place to work? What good it is to have an 
office and no staff? We were able to work through that, so that 
we could occupy our offices as of April 1.
    And in many respects, some of what we were going through 
was a little bit like being in two kinds of amusement park 
activities, one a maze and one the house of mirrors, where we 
really weren't sure, you know, which direction was going to 
lead us to where we had to go. We explored many recommendations 
that were made to us about detail staff and perhaps pursuing 
supplemental funding and so on and so forth.
    And we quickly decided that the best we could do was take 
the $1.2 million, figure out how we could spend it to implement 
our activities and move forward. We have had to do a staggering 
of the hiring of staff so that we still are in a position where 
we don't have a general counsel and don't have an executive 
director, but we believe that we can fill both of those 
positions this summer and will have sufficient funds to carry 
us through, assuming that after the end of the fiscal year, 
when, as we are told 99 percent certain, we will have to 
operate under a continuing resolution, that the appropriate 
steps are taken to make sure that we can continue operating 
during the CR at the level where we are now, and not take us 
back to the $1.2 million.
    And certainly, Mr. Hoyer, if additional funds are able to 
be made available to us this year, it would increase our 
capacity to have more rapid response to inquiries from State 
and local election administration officials as well as to be 
able to disseminate more information much more quickly and to 
do some of the public hearings that we would like to pursue.
    The chairman talked a little bit about the challenge we had 
in making sure that the requirements payments could go to the 
States. And again, it was through a very good cooperative 
working relationship with the General Services Administration 
that we were able to get that accomplished.
    For the Fiscal Year 2005 appropriation, we did, as the 
Chairman mentioned, have our hearing with the Appropriations 
Subcommittee. And we were describing the work that we could do 
within a $10 million operating budget, having to find ways to 
find money to do research. I mean, we know that we cannot 
responsibly fulfill all of our mandates without having 
research, some evidence-based information, on which we could 
formulate standards, adopt guidelines. Those are not the kinds 
of things that we want to do based on anecdotal information. 
And so we talked with the subcommittee about our need for money 
for research.
    And Mr. Larson, I am very happy to address any specific 
questions you might have. And we are having those discussions 
with the Administration, about our needs for FY05.
    We did have to spend some time understanding just what our 
authority was as an independent agency, what that independence 
meant. We know it means that we don't have the authority to 
come directly to ask for funds. We do have to do it within the 
context of the Administration. So we are having those 
discussions.
    Outlined for you in our written statement are the 
accomplishments that the chairman addressed. And we, quite 
frankly, are very pleased that we have been able to move 
forward. We were able to get detailees from other agencies 
through training programs and the like. And we did receive five 
staff people when the Office of Election Administration was 
transferred to us, effective April 1. So we are beginning to 
put some things in order and do expect that, when we are able 
to hire an executive director and general counsel, we will move 
forward.
    At the end of this month, there will be the first meetings 
of the Board of Advisors and the Standards Board. It will be an 
interesting time, because they are all important stakeholders 
in the work that we are doing under the Help America Vote Act.
    There are 110 members of the Standards Board, and that will 
be broad geographical representation, because there are two 
people from each State, the District of Columbia and the 
territories. The EAC has no input over who is appointed to the 
Standards Board. That appointment is made by the chief election 
official of each State. And so we are hoping that, along with 
that broad geographic representation, that there will also be 
good diversity with respect to racial diversity and language 
diversity, so that we will receive broad input from a diverse 
group.
    The Board of Advisors also within HAVA is very explicit 
about the representation. And these are not individuals that 
the EAC appoints, but the EAC is responsible for providing 
administrative support and working with those bodies. And so at 
the end of this month they will be organizing their work. The 
Board of Advisors is to elect a chair. The Standards Board will 
select a nine-person executive committee, and then both 
committees are to--I mean both boards are to appoint committees 
to help us recruit, interview and identify candidates for 
executive director. And so that is a process that will be 
ongoing through the fall and I would expect into early 2005.
    And so with that, I will conclude my remarks and, again, am 
prepared to and pleased to answer any questions you might have.
    The Chairman. Other statements?
    Now, we do have two votes, one 15-minute vote and a 5-
minute vote.
    Mr. Ehlers. Mr. Chairman, if I may just interrupt a moment. 
I apologize for being late. I had another meeting I could not 
get out of. But I do have an opening statement. And I would 
just ask unanimous consent to enter that in the record.
    [The statement of Mr. Ehlers follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairman. Without objection.

               STATEMENT OF HON. PAUL DeGREGORIO

    Mr. DeGregorio. Thank you, Mr. Chairman, Chairman Ney, 
Ranking Member Larson, Members of the Committee and Congressman 
Hoyer, thank you for giving me this opportunity to come before 
you to join my distinguished colleagues seated with me at this 
table.
    Before I begin, I want to thank the Chairman and Members of 
the committee for their leadership in passing the Help America 
Vote Act. Obviously, without it, we would not be sitting here 
today. However, more importantly, without HAVA, there would not 
be a Federal role in the national leadership we have today on 
the way elections are conducted in the United States.
    As one who conducted elections in Missouri's largest county 
for 8 years, I can attest to the fact that this Federal role in 
providing assistance to States and local election officials was 
sorely needed, and long before the 2000 election, I might add. 
Furthermore, as one who provided technical assistance on 
elections to the Russians and 19 other countries for 9 years 
prior to my appointment as a commissioner, I am grateful to 
have the opportunity to provide assistance to my own country.
    I would like to briefly update the committee on our 
important work in several areas. Our work on best practices 
guidance for this November's election, the formation of our 
Technical Guidelines Development Committee and our work with 
the National Institute for Standards and Technology. More 
details regarding this activity can be found in the written 
testimony submitted to this committee.
    As part of its clearinghouse responsibility, the EAC is 
committed to gathering information regarding best practices and 
lessons learned and to disseminate this information to election 
administrators, advocates, other interested parties in a timely 
and informative manner.
    The EAC believes there are many things that election 
administrators can do to increase the likelihood of reliability 
of voting equipment and systems for the November 2004 elections 
and decrease the likelihood of an irregularity.
    The EAC serves as a repository of useful information which 
enables it to provide critical guidance and resources to 
election officials as they prepare for upcoming general 
elections. The EAC is developing a HAVA tool kit that will 
offer guidance to election officials. The first set of guidance 
will be issued in the next few weeks so that it can be of 
practical use in time for the November election.
    Then, as the EAC progresses in its work, the tool kit will 
evolve in 2005 to include guidelines, guidance, resource 
materials and other publications that will be helpful over the 
long run to election administrators, elected officials, 
advocates, scientists, academics, the media and other parties 
interested in the administration and integrity of our election 
systems and progress and certainly the Congress.
    The EAC recognizes that there are many aspects of election 
systems and practices that have nothing to do with how voting 
machines function. These areas of election administration which 
are covered in HAVA also need examination and guidance. Two 
glaring examples are poll worker recruitment and training, 
which the chairman made reference to earlier, which are major 
challenges that confront most election officials.
    Also important to be included in the HAVA tool kit would be 
information and guidance on voter registration requirements, 
provisional ballots, absentee ballots, especially for our 
troops and our American citizens who work outside of the U.S., 
and other aspects of election administration and voter 
education.
    Pursuant to HAVA Section 252, the EAC will soon issue to 
Congress a report on best practice for facilitating voting by 
U.S. citizens covered by the Uniform and Overseas Citizens 
Absentee Voting Act, which is being developed in consultation 
with the Federal voting assistance program of the U.S. 
Department of Defense.
    However, Mr. Chairman, we know that, in the midst of many 
HAVA mandates that need our attention, the one that cries out 
for immediate attention is the growing concern about the use, 
reliability, accessibility and security of the various voting 
systems that will be administered in 2004.
    As noted earlier by our chairman, we believe that there are 
things that the EAC and election administrators can do now to 
increase the likelihood of reliability of voting equipment 
assistance in the November 2004 elections and decrease the 
likelihood of irregularity.
    To that end, our best practices guidelines published in 
coming weeks will be critical components of our tool kit, and 
based on testimony we received at our May 5th and June 3rd 
hearings and with thoughtful input over the past few weeks from 
election official advocates, academics, vendors and other 
experts from across the country.
    As noted earlier, HAVA established a 15-member Technical 
Guidelines Development Committee that is charged with the 
responsibility of developing voluntary guidelines for voting 
systems and voting equipment that will be reviewed by the EAC 
Board of Advisors and Standards Board and ultimately adopted by 
the four of us.
    As established by HAVA, the TGDC, as it is known, is 
chaired by the director of the National Institute For Standards 
and Technology, Dr. Arden Bement. He currently serves as the 
director of NIST and will chair the committee.
    In consultation with NIST, the EAC has appointed the 14 
other members of the TGDC, which, by law, includes 
representatives from the American National Standards Institute, 
the National Association of State Election Directors, the 
Institute for Electrical and Electronic Engineers, the Access 
Board, the EAC Standards Board and the EAC Board of Advisors.
    These are individuals with technical and scientific 
expertise as well as dedicated election officials and public 
representatives. EAC plans to hold the first meeting of the 
TGDC on July the 9th. HAVA provides that the TGDC will have a 
9-month time table to draft voting system guidelines.
    These draft guidelines will be reviewed, as stated earlier, 
for final disposition by the EAC. With all certainty, the 
public hearings will be conducted on this important issue by 
the TGDC during the process to ensure adequate input by 
officials and voters alike.
    HAVA provides that the voting system guidelines will be 
voluntary, but the EAC is well aware that most States and 
jurisdictions will follow these guidelines as they develop 
their own standards for election equipment used in their 
States.
    Now I would like to talk just briefly about our work----
    The Chairman. If I were 10 years younger, I could let you 
go another 2 minutes and get over to that vote in time. I can 
run, but I can't jog. If you don't mind----
    Mr. DeGregorio. Chairman, let me just add, in our 
statement, we talk about the work with NIST. NIST has provided 
tremendous support to the EAC over the past 5 months. And we 
are going to work with them in the next coming months with the 
technical guidelines development that we are going to do.
    The Chairman. Thank you. We have about 6 minutes left, and 
the vote will occur, so we will go over.
    If we can recess, come back with any additional comments 
Commissioner Martinez has and then open it up for questions and 
thoughts. We will be in recess.
    [Recess.]
    The Chairman. The committee will come to order. Thank you. 
We will begin with Mr. Martinez--or we will complete with 
Commissioner Martinez. Thank you.

                   STATEMENT OF RAY MARTINEZ

    Mr. Martinez. Thank you, Mr. Chairman.
    Mr. Chairman, and Ranking Member Larson and members of the 
committee, I am pleased to be here to join my colleagues this 
morning to give an update on our progress with respect to the 
implementation of the Help America Vote Act. I will be very 
brief in my comments so that we can get to some questions and 
answers and talk in greater detail about our work.
    As you know, Mr. Chairman, HAVA creates new mandatory 
minimum standards for States to follow in several key areas of 
election administration. For example, HAVA provides funding 
referred to as requirements payments to assist States in 
implementing several uniform nondiscriminatory election 
technology and administrative improvements. These include new 
voting system standards, provisional, and voting information 
requirements, voter identification requirements, and the 
creation of computerized statewide voter registration lists.
    To be eligible for requirements payments under Title II 
states have to submit to the EAC written State plans indicating 
how the requirements payments would be used. All 55 States--
and, of course, the four U.S. territories and the District of 
Columbia are referred to in HAVA as States--all 55 State plans 
were published by the EAC, as Chairman Soaries has reported, in 
the Federal Register on March 24, 2004. And following that, 
there was a 45-day mandatory comment period that ended on May 
the 8th of 2004. And at that point States began submitting 
statements of certification as required to the EAC.
    Over the course of the last several weeks, the EAC has 
attempted to provide appropriate oversight and due diligence to 
the distribution of these Federal funds. For example, the EAC 
has been working with many States to resolve questions that 
have arisen regarding the certification process and 
distribution of the Title II funds.
    In addition, the EAC has worked closely with other Federal 
agencies such as the Office of Management and Budget to resolve 
issues pertaining to procurement, reporting, and auditing 
protocols that are normally applicable to the Federal funds 
awarded to outside entities such as State and local 
governments.
    In short, Mr. Chairman, this has already been reported by 
Chairman Soaries, in the 5 weeks since the end of the 45-day 
comment period, the EAC has now processed statements of 
certification from 25 States. And, accordingly, by next week 
GSA, at the direction of the EAC, will begin making 
requirements payments to these 25 States totaling well over 
$800 million. We expect to process additional statements of 
certification from States in the days and weeks to follow, and, 
in fact, we have some already in the pipeline that we are 
trying to process today.
    Another critical responsibility of the EAC is to serve as a 
national clearinghouse for the compilation of information with 
respect to the administration of Federal elections. In order to 
successfully fulfill this requirement, Mr. Chairman, the EAC 
has worked diligently in its first 6 months of operation to 
develop close ties not only with our main constituency, which 
are election administrators and supervisors throughout the 
country, and, of course, other State and local government 
organizations, but, equally as important, with advocacies, 
civil, and voting rights organizations, and other interested 
parties that are interested in assisting us with implementation 
of the Help America Vote Act.
    Shortly after assuming office last December, all four EAC 
Commissioners traveled to various local jurisdictions 
throughout the country in order to personally observe the 
administration of primary elections, to visit with election 
administrators, poll workers, and voters, and to see firsthand 
the implementation of various HAVA requirements such as 
provisional voting. One of the States that I visited was 
Oklahoma, which was implementing a type of provisional voting 
for the first time as a result of the requirements in the Help 
America Vote Act.
    Moreover, the EAC has held, as we know, two public 
hearings, one here in D.C. covering DRE machines and another 
just several weeks ago in Chicago, Illinois, where election 
officials, representatives of advocacy organizations, and 
members of the general public were invited to submit oral and 
written testimony regarding HAVA implementation issues.
    In addition to travel and public hearings, Mr. Chairman, 
the EAC Commissioners as a group and through the individual 
efforts of each of the Commissioners have been attending 
various functions, meetings, and annual conferences in order to 
educate and inform the public regarding the important mission 
of the EAC. Since various advocacy and civic organizations have 
also worked hard on issues central to HAVA implementation, the 
EAC has also made a concerted effort over the course of the 
last several months and since we have been appointed in 
December to be informed of their experiences and perspectives 
regarding HAVA implementation.
    Finally, because coordination with other Federal agencies 
is critical, members of the EAC have held planning sessions and 
various meetings with agencies such as the Departments of 
Justice and Defense, and the Administration on Developmental 
Disabilities within HHS.
    The EAC remains firmly committed to continuing this 
important outreach and to soliciting input from the general 
public. The valuable information we receive will inform us as 
we make critical recommendations to State and local governments 
regarding election administration, and as we give guidance on 
implementing the various election reform measures required by 
HAVA.
    I thank you, Mr. Chairman, for the opportunity to say a few 
words. And of course I would welcome your questions on this or 
any other issues regarding HAVA implementation.
    The Chairman. Thank you.
    Normally we are pretty relaxed here about the time, but I 
am going to hold myself to the 5 minutes, and that way we all 4 
can get 5 minutes in, in case members have to come and go. 
There are other questions I want to ask, and I know others do, 
but we will just hold to the 5. That way everybody gets a round 
in, and then we can continue with no problem.
    Again, I appreciate your testimony. As far as my question, 
when do you anticipate--anyone can answer if you want to or 
decide who wants to answer. When do you anticipate issuing the 
best administration practices with respect to electronic voting 
equipment? I mean, do you have a date or a guesstimate?
    Mr. Soaries. Commissioner DeGregorio is working closest to 
that process. Our expectation is to be prepared by mid-July to 
distribute that information.
    The Chairman. I think one other thing that also concerns 
me, and we can go into this later in the rounds of questioning, 
is that we had an issue with the Defense Department. They were 
supposed to have this program, and it was all pooled--I think 
it was roughly $20 million. I am not sure that--I don't know 
what happens after that. I am not asking for an answer now in 
my time, but I think I will come back to that.
    I am assuming you plan in the near future for the 
provisional ballots--to issue some guidelines for those. Do you 
have an idea of the time frame for that?
    Mr. DeGregorio. Mr. Chairman, those will be issued at the 
same time we issue the best practices for voting systems in 
early to mid-July.
    The Chairman. Okay. As far as most States, I am assuming, 
have asked for a waiver from the implementation of the 
computerization until 2006. Is that correct?
    Mr. Soaries. Forty-one have asked for waivers.
    The Chairman. Do you think the other nine are going to do 
it, or do you think they will be asking, too?
    Mr. Soaries. No. I think in varying stages. We have some 
States that have already had computerized voting databases, but 
they had to upgrade their hardware. In another State, we have 
an upgrade of the software. I think they are in various stages 
of implementation, but most, if not all, will be doing some 
work to get to 2006. No one is in a perfect state yet.
    The Chairman. As far as the poll workers, and I know the 
Chairman mentioned it and a few of the other Commissioners, I 
think that is a real critical part of this. It is something we 
looked at, it is something Congressman Hoyer, Senator Bond and 
Dodd and everybody, McConnell and everybody all looked at that 
issue. One of the reasons we also devised the high school and 
college bipartisan program--and Congressman Hoyer came up with 
the college end, and I came up with the high school end--was to 
encourage the participation. Maybe the students get the day off 
and they can go to the polls and help, and then you are getting 
people that are going to be poll workers down the road in their 
communities, so I am hoping that program gets started.
    Now, I know from our end, I don't believe that the head of 
the high school program has been appointed yet, which we need 
to take care of that. That is going to be our duty to push 
that. I would hope that is an integral part, I would assume, 
down the road. Any comments on those two programs?
    Mr. Soaries. The poll worker initiative both for high 
school students, college students, and corporate support is 
critical to the future voting in this country. I have not met a 
jurisdiction yet that believes they have sufficient numbers of 
poll workers. Again, the complexity of the voting process 
requires even more poll workers. And it is just--it is not in 
the culture that being a poll worker outside of the partisan 
political apparatus is important to do.
    We are attempting everything we know to do, including 
trying to get some celebrities who have high name recognition 
to volunteer to be poll workers. If we don't put this on the 
map and make it a part of the culture, then voting in the 
country is at risk.
    The Chairman. Also, I think when we start to talk about 
DREs and machines--and I am of this era. If I hook up a VCR--my 
son Bobby or my daughter Kayla, they hook up the VCR. I won't 
even talk about computers and what happens, but younger people, 
they don't have the fear of it. I think, too, as we go down the 
path of equipment and technology, I think having these younger 
people now who don't fear machines as much--that is not to say 
that people who are older can't learn. I mean, we have talked 
to poll workers, and they are starting to become comfortable 
now with the idea. When they first heard about it, they were 
fearful of it. They are becoming comfortable. But I think as 
time goes on, having the younger people in there will--I think 
will be a very good thing.
    In my remaining 39 seconds, also, how about the--it is 
very, very important--the persons with disabilities, who have a 
form of disability, and they push so hard for the one machine 
per precinct. How do you think that is going, the one machine 
per precinct?
    Mr. Soaries. We are finding local jurisdictions' 
willingness to cooperate, participate. Again, the controversy 
surrounding the use of DREs in general is beginning to weigh 
against some of the advocacy for accessibility for people with 
disabilities. And I think a proper role for the EAC is to make 
sure that we keep that balance, that we have maximum security 
and maximum accessibility.
    The Chairman. Thank you.
    The gentleman from Connecticut.
    Mr. Larson. Thank you very much, Mr. Chairman. And, again, 
let me thank the panelists.
    Let me also recognize that in the audience today we have 
Joe Crangle from New York, who is on the EAC Advisory Board as 
well, and I just wanted to acknowledge his presence.
    And let me cut right to the chase with respect to, I think, 
one of the overarching concerns that I have is whether or not 
you have adequate funding for the administration of the EAC. 
And as was pointed out both in testimony and by Mr. Ney and Mr. 
Hoyer, this is an ongoing concern of mine. And given the broad 
tasks that you have been given, do you feel that you have 
sufficient funding? And where are you with asking for 
additional funding for research?
    Mr. Soaries. I am going to ask Vice Chair Hillman to 
explain my one-sentence answer.
    The EAC is best described as being fiscally challenged, and 
Vice Chair Hillman will break it down for you.
    Ms. Hillman. The short answer to your first question is, 
no, we do not have sufficient resources. As the committee 
knows, EAC is authorized to have up to $10 million for 
operating, and for 2004 we were appropriated 1.2-. When we 
received the transfer of the Office of Election Administration, 
along with that came the balance of their funds, which was 
about $500,000. So what we scaled out was that we are operating 
in fiscal year 2004 with a budget of--annual budget of about $2 
million.
    And so we quickly began exploring whether there was any 
possibility to get supplemental funding, and we always 
identified that somewhere between 1 and 2 million dollars in 
additional funds wouldn't do for us what 10 million would have, 
but it would have at least enabled us to be able to respond a 
little more quickly to some of the challenges.
    With respect to money for research, we--I don't want to say 
that we gave up on money for research, but we recognized that 
with the time remaining, we couldn't do the kind of research 
that would allow for analysis, testing, and so on and so forth. 
But the National Institute of Standards and Technology did give 
us for $1 million what they could do right now this summer that 
would be available to jurisdictions in time for the November 
elections. So we do have, you know, in place programs that 
could be immediately implemented if we had additional funds.
    For 2005, we identified what we could do with $10 million 
in research funds. Now, there were authorized up to $30 million 
that could be available for research monies, none of which has 
ever been appropriated. And so we were saying to the 
subcommittee and the Administration, you know, we really need 
the $10 million. What we had originally done was be so modest 
as to come in and say, okay, well, if we only get 10 million 
for operating, we will take 30 percent of that and apply it to 
research, and we can do a little bit. We were encouraged to ask 
for what we thought we could use and need. So what we are 
discussing with the administration is 10 million for operating 
and 10 million for research.
    And the research would be programs that we would be working 
with NIST on, looking at the equipment and coming up with 
recommendations for standards that we should adopt. And we are 
behind on that because I think that was supposed to happen 
within 9 months, you know, after the TDGC had been formed.
    Mr. Larson. Well, as Mr. Hoyer noted in his opening 
statement, this is something that Mr. Ehlers was critical in 
both providing the impetus and the influence of having the 
relationship with NIST. And to say that you are fiscally 
challenged is an understatement, I would say, and it is 
important that the committee hear this so that we can seek to 
help address these critical areas that are so important to us.
    Another question. You had a hearing back in May, and I 
would like to know where the EAC is with respect to DRE 
security and the debate, and where do you see that all going? 
And, most importantly, because this is a question I get asked 
all the time, even if legislation such as the Holt legislation 
were to be embraced, could it be effective by--put in place and 
be effective by November for this election?
    Mr. Soaries. I will take the latter question first.
    The answer is no, that the expectation that legislation 
passed would result in every DRE voting device in the country 
being retrofitted with a printer is--it is beyond what is 
practical. One, we don't know the cost, and we don't have 
sufficient projections as to the reliability of printers. We 
don't know the protocols for training poll workers. We don't 
know the implications for backup systems. We just--we don't 
know enough yet. And on May 5th, when we talked to experts with 
various perspectives on this issue, we came away with the 
understanding that we just don't know enough yet.
    But the larger--the larger answer to you, Congressman, is 
that when you frame the debate the way it has been around paper 
verification, you create an assumption that paper is the 
solution to the only security risk involved. Experts have told 
us that if one can manipulate the results of a DRE that doesn't 
have paper, one also could manipulate the results of a DRE that 
does have paper.
    And then we have the issue of verification being one that 
is more complicated than paper. There is a school of thought 
that you have a voter-verified paper trail, but then there is 
another body of research that talks about the voter-verified 
audit trail. And the audit trail without paper can be made 
possible by cryptography, and that a cryptographic solution is 
much more secure than a paper solution because we have had such 
a history of paper.
    What we have said is that all of these varying views compel 
us to get the technical process in place, get the money to do 
the research.
    Mr. Larson. Which is why the funding is so important.
    Mr. Soaries. Exactly. And the position of HAVA was that the 
Commission would be in place by about March of 2003, that the 
research would be done by December of 2003. And so when the 
States got the money, along with the money would come the 
guidance. We were in the position of having to release the 
money without having the money to do the research, and so the 
States will have over the $2 billion in Federal funds before we 
can study sufficient to give them guidance on using the money.
    Mr. Larson. In keeping with the admonition of the Chair, I 
will get back with other questions. But thank you, sir.
    The Chairman. We will come back.
    Also, I just wanted to note, I know the gentleman from 
Connecticut was putting something in the record, I think, for 
one of the--I don't know if it was for the American Association 
of Persons with Disabilities.
    Also, without objection, I want to put something in the 
record. I think that the New York Times article written by Jim 
Dixon was over the top on impugning the integrity of the 
association of the National Federation of the Blind and one of 
our U.S. Senators, who I hate to even print the names because I 
don't want to have them again impugned--I think it was 
impugning--it is okay in this democracy to have a difference of 
opinion. I think it just simply impugned them over them having 
an opinion. Therefore I am going to, without objection, put 
some further remarks in the record.
    The gentleman from Michigan.
    Mr. Ehlers. Thank you very much, Mr. Chairman. And thank 
you for having this hearing.
    Just for background, in case you didn't know, I happen to 
be the scientist on the committee and the person who wrote the 
part of the bill dealing with the technical aspects. That bill 
came out of our Science Committee and then was folded into 
this.
    I have to confess to a lot of chagrin about what has 
happened. Obviously, the research should have been done first 
before we buy several billion dollars worth of voting machines, 
and that was the intent. And I had advocated originally that we 
have a set-aside out of the money for the computers. That would 
automatically fund your operation. That got lost in the 
appropriations process. The authorization we did was 
sufficient, but the appropriations weren't.
    I do want to add also that I also attempted to persuade the 
recipients of the $3 billion approximately that they should be 
willing to let us use a portion of that, and I will never 
forgive them for saying no when we were giving them that much 
money for their purposes and their job, and they said, no, we 
don't want you to use any of it for research. And that is, I 
think, a gross error on their part and unforgivable.
    The points I want to make. I think the issues that have to 
be dealt with in voting are usability; in other words, the 
human factors. Make sure it is easy to use. And I have rebelled 
against the people who say all we have to do is train the 
voters. That is not the point. You cannot train people who are 
going to do something once, maybe twice a year and expect them 
to remember it. The machines have to be good enough so that no 
training is required, literally idiot-proof. And so usability 
is very high on my scale of things that have to be achieved.
    Accuracy, of course, is very important, and that is 
relatively easy to achieve using electronic devices. It is 
actually fairly easy to achieve using punch cards if people 
simply operate them correctly. And that relates to maintenance 
and testing. And punch cards are fine if you maintain and test 
them, but every system has to be maintained and tested.
    Verifiability is very important, and that gets to the point 
you just raised a moment ago, Mr. Chairman. I have not joined 
in sponsoring the bill to require a printout even though I 
think it would be a good thing, because it was on the basis 
that this would somehow verify that the vote was cast 
accurately. And I personally can program a computer to print 
out precisely what the person put in, but store in the memory 
something different, and that is where the opportunities for 
fraud come in.
    I have been surprised in serving on this committee that 
fraud is still a very viable issue in this Nation. I have been 
led to believe as I was growing up that once we got rid of 
Tammany Hall and all the other various machines, that elections 
now were just slick and clean. They may be slick, but they are 
not all clean. It depends on the part of the country you are 
in. And fraud is still a problem in a number of ways, and you 
can commit fraud more easily with electronic machines in many 
cases than you can with the old system. And so we really have 
to emphasize the security, and that means, as part of the 
testing procedure, you really have to, before each election, 
test and make sure that the machines are recording accurately 
and verifiably.
    I think a key factor is going to be also to have skilled 
technical help available in the polling places. Now, that is 
very difficult. It is hard enough to find poll workers, but to 
find poll workers who understand electronic instruments and can 
verify they are working accurately is very difficult. And I 
really think we--and Mr. Hoyer has mentioned this, too. I think 
it is an excellent idea that we should simply call upon the 
high-tech industries in this country to donate employees with 
full pay to be in the polling places, to ensure that the 
machines are working properly and accurately, and not simply 
depend on the poll workers who frequently do not have a 
technical background.
    All of these have to be done, but above all you have to 
have the money to do your job right, because I think yours is 
the most crucial part of the entire enterprise. And if the work 
is done properly and setting standards for all the factors I 
have mentioned, we are going to have fair and free elections 
and with equipment that operates properly. If your background 
work doesn't get done right, and you don't have the resources 
to do it, we are throwing several billion dollars down the 
drain again, and we will come back with the same problem a few 
years from now.
    I have thrown a lot at you, but I would appreciate, even 
though the time is basically up, any comments you would like to 
make in response.
    The Chairman. If we could, because I want to do that. If we 
could go to the gentlelady, and in 5 minutes, if you could come 
back and answer that.
    Mr. Ehlers. Okay.
    Ms. Millender-McDonald. Thank you, Mr. Chairman. And it is 
very critical that we have this hearing this morning. Thank you 
and the Ranking Member for convening this.
    And I thank you all for being here and in your positions as 
you are starting out on a deficit yourself in terms of lack of 
funding.
    I think the Chairman stated that there were 41 States--our 
Chairman raised the question, and I think you responded, Mr. 
Chairman, that there are 41 States that have opted out of the 
computerized system. Am I correct in that? Because I was kind 
of reading and then listening. Is that a fair assessment of 
that question he raised and you answered to that?
    Mr. Soaries. The question was, how many States have asked 
for a waiver for this year to construct their statewide 
computerized voter registration database?
    Ms. Millender-McDonald. Okay.
    Mr. Soaries. And the deferment is to meet the 2006 
deadline. So that----
    Ms. Millender-McDonald. That is what it was. And it is 41.
    Mr. Soaries. Forty-one. Yes.
    Ms. Millender-McDonald. So would they be perhaps going back 
to the paper ballot, I suppose? Is that what they are going 
back to?
    Mr. Soaries. No. This doesn't have to do with voting 
devices. It has to do with the management of the voter lists.
    Ms. Millender-McDonald. I got you. Okay, fine.
    In terms of polling places, that has become extremely 
problematic especially in the minority communities. Are you--
and you stated that, Mr. Chairman, insufficient number of 
persons, a lot of ill-trained personnel. How does this 
Commission work in that regard? What will be your role in that?
    Mr. Soaries. In the selection of polling places?
    Ms. Millender-McDonald. Selection, training, ensuring that 
there is not disenfranchisement because of what we saw in 
Florida. We see it in California, and you see it in Texas and a 
lot of other places.
    Mr. Soaries. Our role formally is to establish the areas of 
great concern and areas that are legally mandated, and share 
immediately best practices with election officials around the 
country and communities that can hold the election officials 
accountable to these best practices. In other words, if you are 
going to use provisional ballots, which every district is, here 
is how you get it right; here is how you ensure that it is 
consistently executed in a legal way and in a fair way. If you 
are going to train poll workers, we have in our best practices 
where--a section on the training of poll workers. If you only 
train for about 20 minutes, you probably won't get it right. If 
you train for 45 hours, you will probably get no one to sign 
up. And so what we are doing----
    Ms. Millender-McDonald. And may not get it right either.
    Mr. Soaries. Exactly.
    Commissioner Martinez and I met with a group of disability 
groups last week to talk about how we as a Commission can 
encourage election officials to identify more polling places 
that are accessible for disabled. It is one thing to say that 
the machines have to be accessible, but the question is, what 
about the polling place itself, whether or not it is 
accessible? And so in a larger role we have more of a bully 
pulpit where, because of our legal mandates, it puts us in a 
position to raise other issues that may not be in the 
legislation, but have to do with the effective management of 
election practices.
    Ms. Millender-McDonald. Either one of you can answer this 
question. So, have you had meetings with registered recorders, 
clerk, or have you had meetings with city clerks who handle 
some of this, or State personnel? Have you had those hearings, 
meetings? Are you anticipating that, what, 5 months out? 
Certainly you had such a short window getting started, it seems 
to me it is rather late.
    Mr. Martinez. To answer your question, Congresswoman, yes, 
we have had lots of meetings where we have tried to make 
ourselves very visible and available to election 
administrators, to folks who have direct responsibility for the 
administration of our elections, but also, as I said in my 
opening remarks, to other interested parties, to advocacy 
groups, for example, who have a history of monitoring the 
administration of elections. We want to make sure that we 
garner as much experience and perspective as possible as we 
implement the Help America Vote Act.
    The other answer to the question that you raised is that, 
you know, as the Chairman said, the power of this Commission is 
really the power of persuasion, the power of the bully pulpit. 
We are essentially a nonregulatory agency, but it is important 
for us to remind States and local governments that they are 
coming into a lot of unprecedented and really historical 
Federal funds for use of improving the administration of 
Federal elections. It is incumbent upon us to use our bully 
pulpit to make sure that this is not about just replacing 
technology, it is also about the people side of election 
administration.
    So the money that is flowing, the Title I money that has 
already been out there for a while, section 101 and 102 money, 
and now the Title II funds that are about to flow can be used 
for the things like poll worker training, nonpartisan voter 
education, so that if you purchase new technology in a 
jurisdiction, you want to make sure that the folks who are 
going to be using that technology are comfortable with that 
technology and not intimidated by the fact that they are using 
a brand-new voting system.
    So, appropriately some of these Federal funds can be used, 
again, on the people side of election administration. It is not 
all just for the technology, as important as that is. So I 
think it is important for us to use our bully pulpit to be able 
to educate the public and the election administrators about the 
use of these funds.
    Ms. Millender-McDonald. Mr. Chairman, I don't know who is 
running my clock, but that is a quick red light that I saw. I 
did want to raise one more question.
    Mr. Ehlers [presiding]. Actually I think it was no quicker 
than mine.
    Ms. Millender-McDonald. Really. Thank you.
    The Chairman. I will let you have another minute.
    Ms. Millender-McDonald. Please.
    I just wanted to raise the question about the last 
election. We know that the Justice Department had some of their 
personnel going out, monitoring, overseeing elections, and 
rightfully so, because we did not anticipate but did have the 
Florida debacle. Do you have any oversight monitoring role in 
this as well, and will you enforce such laws as civil rights 
laws and the Disability Act?
    Mr. Soaries. We have a very cooperative working 
relationship with the Justice Department. One of our early 
meetings in January was with the Civil Rights Division of the 
Justice Department. We probably speak with them every single 
week. Because the Justice Department under HAVA has enforcement 
authority for the implementation of HAVA, we have some 
responsibility as it relates to auditing the use of funds and 
ensuring that States are compliant with HAVA in the use of 
those funds, and so it is more of a cooperative relationship 
than it is oversight.
    But HAVA does explicitly state that States have to be in 
compliance with the Voting Rights Act of 1965, the Americans 
with Disabilities Act. And to the extent that we are working 
with the 8,000 election officials and we have information about 
possible violations, we have established a methodology for 
triggering the Justice Department to investigate and, if 
necessary, prosecute. There are a few consent decrees that have 
already been entered as relates to HAVA violations, and we have 
collaborated with Justice over those issues.
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    Mr. Ehlers. Thank you.
    And I will return to my questions and ask for your 
reactions and comments to my statements.
    Mr. Soaries. Thank you, Mr. Chairman.
    We worked with the National Institute of Standards and 
Technology from day one. And as you know, HAVA requires that we 
release a human factors report that would be conducted by NIST. 
NIST gave us the draft of the human factors report for us to 
ultimately pass on to this committee, and I think I can speak 
for all of us, we were alarmed at the paucity of research that 
has been done in usability. I don't think the average American 
knows in comparison to other industries how weak the usability 
research is on voting devices. And as you rightfully state, one 
can be secure, a machine can be accessible, but if no one has 
studied font size, positioning of ballots, whether vertical or 
horizontal positioning affects the outcome of an election, then 
we really are groping in the dark as relates to usability.
    The human factors report lists 10 recommendations, which we 
accept. We pass it on to Congress. But all of them require the 
funding that is needed to do the proper research. And we have 
been challenged, as it were, because on the one hand we are 
responsible as public officials to inform the public as often 
as we can and as honestly as we can. On the other hand, if we 
say everything we know, it could frighten people to death. And 
so we are constantly looking for the kind of support that your 
questions lead to to ensure that we can do the work that we 
have been charged and tasked to do to make sure we have 
integrity.
    The maintenance and testing, though, is something I want to 
mention for a moment. If you take away the EAC and remove HAVA, 
the fact is technology is advancing more rapidly today than it 
ever has, and no one has been able to assess the true 
maintenance needs, the true testing procedures, and ultimately 
the true cost of replacement for the new voting technologies. 
If we, the EAC, aren't in a position to offer the country that 
kind of information, we may find that the money the Federal 
Government is spending today will commit the States to 
technologies and upgrades that they don't have the resources to 
sustain over the long haul. If you buy a personal computer 
today, you buy it knowing that 3 years from now you will need a 
new one. And we have yet to even begin to discuss the 10-year, 
15-, 20-year impact, fiscal impact, that is generated by the 
use of the $3 billion that we will use to seed voting 
technology upgrade in the country.
    So there are so many unknowns that those of us who felt we 
might only serve a year or two probably now understand that 
this is probably a 10-year mission.
    Mr. Ehlers. Thank you. And, frankly, the good news part of 
it is that because these do not have to be very sophisticated 
machines, that you probably don't have to replace the machines 
every 3 years, but you may have to upgrade the software every 2 
or 3 years. That is a generally less expensive proposition. So 
if you get some good basic computers to begin with, I think you 
can then probably get a 5- to 7-year lifetime out of them 
simply by upgrading the software. But it is still an important 
maintenance and testing problem; every election you are going 
to have to go through it.
    Any others wish to respond? Yes.
    Ms. Hillman. On the issue of poll workers, just getting 
back to the issue of high school and college students. I just 
want to note that one thing we are keeping an eye on and 
collecting information on is that in some States and local 
jurisdictions, law requires that the poll worker be a 
registered voter in that jurisdiction, age 18 or older. And so 
in some places it precludes the involvement of high school and 
college students. But there are many areas where they certainly 
can get involved.
    Mr. Ehlers. Yes. And in fact, that is why I suggested 
getting high-tech companies to donate employees for a day, 
which presumably they would be old enough and wise enough.
    Any other comments?
    Mr. DeGregorio. Mr. Chairman, if I might add to our 
Chairman's comments. I know you are talking about testing and 
maintenance of election equipment by election officials, but 
there is also the testing and certification of election 
equipment itself, which we know a lot of new election equipment 
will be purchased. And we have a crisis in that area because we 
really only have three labs in this country that are doing it, 
one to test and certify hardware, and two to test and certify 
hardware--software. And we are working very closely with NIST 
on this problem to try to move the process forward to certify 
more labs in this country that can test equipment, because 
there is a bottleneck developing, and it takes many months for 
these labs to certify this equipment.
    And so we are moving forward, but, again, the funding 
shortage has made it difficult to move that as fast as we would 
have liked.
    Mr. Ehlers. It is a very valid point. And when we wrote the 
bill, we would have been quite pleased to allow NIST to also do 
it until enough private supplies were up, but of course the 
private sector objects to the government taking away business 
from them. So we will see whether the private sector comes up 
with the requisite number of certifiable labs that do the work, 
and we may have to readjust if they don't.
    Mr. Martinez. I will simply speak very briefly to the 
overall point that I think that you made, Mr. Chairman, and 
that is that the lack of funding has many implications for our 
Agency. One of the statutory obligations that we have under 
Title III of the Act is to issue guidance to States and local 
governments that are implementing the various administrative 
and technical requirements, the election reform measures that 
are in Title III of the Act. And one of the consequences of our 
being fiscally challenged, of course, is that while we are 
doing best practices and we are developing as much guidance as 
we can within the context of our budget and limited 
infrastructure, the fact of the matter is that there are some 
Title III requirements that have to be put in place and that 
started January 1 of this year, provisional voting, voter ID 
requirements, voter signage, and administrative complaint 
procedures. But there are other big ones coming up now that 
States have asked for a waiver on that you are very familiar 
with, the computerized voter registration database, and the 
various election--the various standards for election equipment 
that are in section 301 of the act, that we are unable to do 
anything more than at this point, as Vice Chair Hillman has 
stated, than really recite anecdotal things that we have heard 
as opposed to giving research-based guidance to States on how 
to implement the various election form measures. That is a 
critical point. We just don't have the means at this point to 
do anything other than how we are going about it, which I think 
is a very responsible and the best possible way that we can, 
but it is within the context of some very severely limited 
funds.
    Mr. Ehlers. Well, we all recognize the problem, and none of 
us are happy about it. We tried to prevent it, but the vagaries 
of writing law sometimes lead to strange results. But we will 
continue to work on and try to improve it.
    My time has expired. Mr. Larson, do you have further 
questions?
    Mr. Larson. Thank you, Mr. Chairman. Yes.
    First, just to so I am clear on this, from an 
administrative standpoint, how much more money would be needed 
in this current year, in the year 2005, in order for you to be 
able to perform your functions? And has there been a suggestion 
of bringing up a supplemental in order to make that happen, 
make that a reality?
    Ms. Hillman. Sure. For 2004, the administration will not 
introduce the supplemental on our behalf. We estimated that, 
given where we are in the fiscal year, 1 million--somewhere 
between 1- and $2 million would enable us--and this, of course, 
assumes that NIST is still prepared to do the work that it had 
scoped out--would enable us to respond to the needs of the 
States and local jurisdictions. But that really is predicated 
on when the money comes. I mean, obviously, if the money came 
in August, it would be very, very difficult for us to do 
justice to that kind of money.
    And for fiscal year 2005, what we identified was the need 
for $10 million in operating, plus an additional $10 million 
for research. That would allow us to do some catch-up, to try 
to catch up on what didn't happen in 2003 and what didn't 
happen in 2004, but needs to be in place in 2005 so that the 
States can meet the mandates of the law.
    Mr. Larson. So, ASAP, you would need a supplemental, for 
2004, between 1- and 2 million; and approximately 20 million, 
10- for administration, 10- for R&D, going forward.
    How does this relate to the questions, Mr. Chairman, as you 
raised earlier? I think everyone is concerned, and I can 
certainly understand everyone's desire to have a paper trail 
given the results of the 2000 election, and general concerns 
about making sure that your vote counts. Obviously every 
citizen wants to see that. You pointed out that the--even under 
the best circumstances, the Holt bill, for example, could not 
be implemented in time for this election. And also, there is a 
myriad of problems that are presented with that as well.
    I was intrigued by the notion of encryption. I think that 
that clearly interests me, but that also brings the point, the 
fact that we don't have the money to go through this process to 
take a look to see how that is going to work.
    Having said all that, and given your charge and given the 
election in November of 2004, what steps are we taking to 
assure voters that their vote is going to count?
    Mr. Soaries. Here is the direction that we are pursuing as 
it relates specifically to security and electronic voting. One, 
we are asking every jurisdiction that uses these devices--which 
is about 700 in the country--to identify security measures that 
they have never taken before that they can take now. Parallel 
monitoring is one such step. In four counties in California, we 
had parallel monitoring, and everyone was happy with the 
results, including the secretary of state. In some areas, it is 
the chain of custody that needs to be upgraded to ensure that 
the voting devices are more secure than they had been. And so 
that is one.
    Two, we are preparing to ask every vendor, every 
manufacturer of voting software to make the source code 
available to the contracting authority so that any election 
official in the country can, with the assistance of the 
computer science community, analyze the source code that is 
being used in their jurisdiction. And it is kind of a halfway 
step between the open code, which some people have said should 
make every source code public, and the proprietary interests 
that the vendors have said is theirs. And we believe the 
vendors will cooperate, so it is the analysis of source code.
    The third is brand new also, and that is that we are 
prepared to ask every vendor to participate in the NIST 
National Software Reference Library. Every other software 
manufacturing industry in the country does that. Here is what 
that accomplishes. It means that the Federal Government will 
have on file the software being used by every certified vendor. 
That software can be analyzed so that you can do pre- and 
postanalysis. And if anyone suspects that a different software 
was used on Election Day than the software that was certified, 
then having hashed that code means you can analyze and compare 
the code to what was submitted and what was used. And if we 
detect that there is a difference, then you can investigate the 
implications of that difference. We have heard from NIST as of 
yesterday that two vendors have contacted NIST to say they 
would like to participate.
    The fourth thing we have done is begun talking with the 
Department of Justice. While many----
    Mr. Larson. Excuse me, I didn't mean to interrupt. And if 
the Chairman will allow it, in the Times editorial--and when 
they did the analogy between slot machines in Las Vegas and 
voting, part of what you are saying would go a long way towards 
addressing some of the voter protection concerns that were 
raised in that analogy; would it not?
    Mr. Soaries. It certainly would, because what it does, it 
makes available to the public information about software 
certified and software used. It would be similar to a human 
fingerprint analysis. But in all----
    Mr. Larson. Should we mandate that? That was my question. 
Should we mandate that, or should we, as was----
    Mr. Soaries. We believe the industry will respond favorably 
and will participate in our request. There are signs already. 
NIST is already negotiating two nondisclosure agreements with 
vendors who have voluntarily said this is a good idea. The 
vendors have an interest in having a more transparent process 
to protect the image that they have invested heavily in.
    But on that point of the software, you know, in many ways 
comparing voting technology software to slot machine software 
is apples and oranges if for no other reason that the money--
not the money that comes out of the machine, but the money that 
the industry has to do the research. And these machines are 
used 24 hours a day, every day, and it is--I think the media is 
responsible for helping us not spread fear.
    Mr. Larson. But that is why I was asking about the need--
and, again, these are all attached to money--for us as a 
legislative body to consider putting in as we move, as we get 
more technologically advanced, what safeguards--again, a 
problem which will require study, but some of which seem to be 
common sense and practical. And you seem to be----
    Mr. Soaries. But we can do the software registration today 
with no extra money in time for November to assure America that 
we are looking more carefully at the software, the technology, 
and thus the voting than we have ever looked before.
    The other thing I think we have to remind people, 
Congressman, is that tampering with elections is a crime. 
Congressman Ehlers suggested that he was hoping fraud would 
disappear. In my other life I am a clergyman. Should fraud 
disappear, I would be unemployed, so I--I need some fraud. But 
the fact is fraud is a crime. Tampering is a crime. And I will 
be addressing all of the assistant U.S. attorneys later next 
month on an initiative that the Election Fraud Division of DOJ 
is launching with us, and that is to motivate people to let us 
know when they detect crimes.
    It is interesting to find the vulnerabilities in voting 
software in the classroom. That is an appropriate academic 
exercise. But when you leave the classroom and you come to the 
community, that is a crime; and a person can go to jail in this 
country for 20 years, and we intend to remind the country that 
violators of that law will be prosecuted. The way we deter 
crime in this country is through prosecution, and we don't want 
that part of the discussion to be left out, because the fact is 
vulnerabilities may exist, but to the extent that they do, you 
can go to jail if you exploit those vulnerabilities.
    And then, as I mentioned earlier, the collection of data is 
critical. We think that many vendors have had the luxury of 
this, of nondisclosure. And so if you buy a car or any other 
kind of device, there is data somewhere that tells you the 
likelihood of that car having certain problems in certain 
areas. We have no such data with voting devices. And the fact 
that we don't have the data allows certain problems to fly 
beneath the national radar, and we would like to put it on the 
national radar.
    Mr. Larson. I agree.
    Ms. Hillman. Mr. Larson, I would also like to note that we 
want the American voters to know that we are working to issue 
best practices on the other machines as well, because 37 
percent of voters will be using optical scans, and 15 percent 
will be using punch cards, and about 15 percent using lever 
machines. And issues regarding maintenance, storage, you know, 
training of poll workers with respect to those machines, we 
know the punch card story very, very well. And, in fact, about 
46 percent of counties in this country will use the optical 
scan as compared to 22 percent using electronic voting 
machines. So in addition to the work we are doing on the DREs, 
we are keeping an eye on the information on the other equipment 
as well.
    Mr. Larson. Thank you.
    The Chairman. One other question, and I will be glad to 
also yield to Members who have additional questions, but one 
question that I have, and I apologize, I had to make a phone 
call, but I don't know if this was brought up. However, about 
the military voting, I just wanted to hone in on it a little 
more. I was recently over in Afghanistan, I spent time in Kabul 
and I have been on board an aircraft carrier with my colleagues 
in Bagram twice, and the issue came up time after time after 
time with our men and women in uniform about what is going to 
happen to them.
    In the Help America Vote Act, we had focused some 
language--I remember that I had each State have a designated 
person that would be focusing on those ballots. It was one 
designated person. Then we had the voting assistance officers 
where we stressed to the Defense Department to have those 
officers over there, or wherever our soldiers are stationed to 
make sure they again assist. I wondered what, with the Federal 
Voting Assistance Project--and although the technology part of 
it just absolutely vanished, we know what happened with that--
but with the Federal Voting Assistance Project, do you have any 
comments on that? Do we need to do more? Or do we have to see 
how this runs? I mean, it is important, because we are at war, 
and of course a lot of questions come up, are their votes going 
to count?
    Mr. DeGregorio. Mr. Chairman, let me answer for my 
colleagues on this issue, because I have focused on this. Early 
on we met with the Federal Voting Assistance Program folks at 
the Department of Defense to talk about this issue, because, as 
mandated by HAVA, there is a report that was due on April 29th 
to the Congress just on this issue of best practices. And we 
are hopeful to get that report out in the coming weeks.
    I have been disappointed that it has taken so long to do 
this. We certainly don't have the staff to do it. But the 
Department of Defense Federal Voting Assistance Program 
certainly has a lot more funding than we have had to do this 
work, and I have impressed upon them the need to get this done 
and get it done quickly so it can be utilized this year by 
election officials throughout America. And I met with them just 
Monday of this week to go through the second draft, and we are 
hopeful that that report will be issued to the Congress and to 
the President by the end of this month.
    But it is a very important issue, and the research that has 
been done certainly shows that there needs to be more in this 
area, because there actually are very few States that have 
appointed a coordinator to focus on this issue statewide, and I 
think that is wrong. And one of our best practices 
recommendation is going to be to impress upon the States that 
they need to do this and do it now.
    The Chairman. Do you have the ability to basically send out 
a notice to the States, to the Secretaries of State that you 
need to appoint someone? Do you have the ability to do that.
    Mr. DeGregorio. We have the ability to recommend to do 
that.
    We don't have any rulemaking authority for the States, as 
you well know. But we do have the bully pulpit authority. We 
will use that in our Best Practices Report to encourage the 
States to do that, because it has been done in several States 
very successfully. I think it is incumbent upon every State in 
this Nation to do that.
    Also, we are going to recommend that each local official 
have a point person that is focusing on the military and 
overseas voters, because it is--I know it is, as a director of 
elections, that we always in my office had a person to do that, 
to make sure that we were getting the ballots out on time. You 
may recall in 2000, that election did show a very lack of 
concern by many election officials to get those ballots out in 
time so the military voters can get them back to be counted 
accurately, counted on a timely basis. So we are focusing on 
that issue.
    The Chairman. I mean, we want no one left behind. The 
provisional voting, I think, is one of greater things, that 
way, you know, you walk in, you are not told, ``Well, your name 
is not on the list, go away,'' and therefore being 
disenfranchised. As you know, the vote is held. If it is deemed 
that the mistake was made, you are accurate, it is counted. If 
not, it is shredded. I think that goes a long, long way to stop 
anyone from being disenfranchised.
    But in a time of war, of course, you can also understand 
with our soldiers over there, those men and women are asking 
over and over, too, because of the distance away they are. So I 
do want to mention that.
    I want to see if there are other questions. I also want to 
comment, I know Congressman Hoyer has been working with Senator 
McConnell and Congressman Istook. And you need the money. That 
is something we need to push. You need the money. I think you 
are doing a great job under horrifically thin resources. We 
authorized $10 million. We authorized it. That gives you $10 
million. That needs to be, I believe, pushed to make sure that 
check is written, and you can get the resources to help you. So 
I think you have done a remarkable job, all of you, under very 
strained resources.
    Mr. Larson. I would just like to follow up with a question 
that I--again, I want to thank Vice Chair Hillman for pointing 
out as well, with regard to the 37 percent that will use 
optical scan; and 15, punch cards; another 15 percent with 
levers.
    And I want to commend the chairman for talking about the 
need to enjoin the Justice Department with regard to fraud. I 
would also hope that we are able, with the Justice Department, 
to focus on those who were intimidated from coming to vote, and 
exercise their franchise and working with them, whether it is 
through a memorandum of understanding or otherwise, and would 
be interested in your comments on how you see that unfolding as 
well, because I think they are two important aspects.
    Mr. Soaries. Certainly, Congressman.
    The overarching theme, as we see it, of HAVA is balancing 
this issue of access and fraud. And while much emphasis is put 
on fraud, equal emphasis has to be put on access, and we know 
there are various barriers to access.
    One of my personal concerns is that, as we approach 
November with a heightened sense of security for the country, 
that our response to securing the country does not have the 
unintended consequence of being perceived as intimidation at 
the polls. In my community, I guess all of my life, every 
election day there has been some assertion of intimidation. 
Members of my church often complain about intimidation. And 
some is explicit, and some is implicit.
    And so we, in our talks with Justice, are attempting to 
ensure that the Justice Department is poised to support all of 
those issues that we have to wrestle with that guarantee free 
and fair elections throughout the country.
    Mr. Larson. Anyone else care to comment?
    Mr. Martinez. I would make a quick comment on this topic. 
That is that it is also incumbent upon--I mean, I agree with 
our chairman that we have been working closely and building an 
appropriate partnership with the Department of Justice on these 
very important issues.
    You know, it is also important that DOJ and that, to the 
extent that we are involved, that current--that new provisions 
that are as a result, that the result from the Help America 
Vote Act are properly implemented. So, as I have said, there 
are some election reform requirements in Title III of the Act 
that States could not waive, which are very important.
    For example, provisional voting, which we talked about 
already, we have talked about voter signage, where 
jurisdictions have to put up a notice at every polling place 
now that essentially says--it is not a voter's bill of rights, 
but in a sense it kind of is--that you have an administrative 
complaint procedure that you can seek redress if any of your 
HAVA rights are being violated, and it is related information.
    So it is important that DOJ is working with jurisdictions 
to ensure that these new requirements are properly implemented. 
And I have every confidence that DOJ is doing that and making 
sure--and another provision would be, for example, 
jurisdictions that are under certain sections of the Voting 
Rights Act, so if you have to have certain signage, for 
example, in Spanish or in a different language, that those 
voting rights provisions apply to the requirements that are now 
part of Federal law as a result of the Help America Vote Act.
    So my experience and I think our collective experience in 
working with DOJ is that they are moving aggressively to make 
sure that jurisdictions are implementing the laws that are 
currently on the books when it comes to access like provisional 
voting and related issues.
    Mr. Larson. Well, thank you for performing the yeoman's 
tasks that you are about.
    Do you intend to have any more hearings yourself? I know 
the hearings you have had have been very successful.
    Mr. Soaries. We would like to have one more hearing between 
now and November focusing specifically on the poll worker 
issue. We would like to put a face on the issue. We would like 
to demonstrate the need. We would like to give poll workers a 
chance to discuss the experience, elections officials an 
opportunity to talk about their gaps. And then we would like to 
get some of those colleges and corporations that are willing to 
help us to talk about how they are going about using their 
resources to help fill that gap.
    And so we are assuming that we can have one more public 
hearing, that it will be focused on poll workers, because we 
really think that that is going to make or break the election 
in November.
    Mr. Larson. Thank you.
    The Chairman. I want to thank our ranking member, the 
gentleman from Connecticut, for his participation and the 
amount of time he has put in on this issue.
    I want to thank all four of you commissioners for being 
here, and also for the job you are doing.
    I mean, we can debate all of these issues we want here, but 
if people don't feel that they had a true rightful election, 
and had their chance at the ballot box, then all of the other 
issues I think get very, very grey. I think that what you are 
doing is wonderful for the entire country, and I appreciate 
your time today and appreciate the job you are doing.
    I ask unanimous consent that Members and witnesses have 7 
legislative days to submit material into the record and for 
those statements and materials to be entered in the appropriate 
place in the record. Without objection, the material will be so 
entered.
    I ask unanimous consent that the staff be authorized to 
make technical and conforming changes on all matters considered 
by the committee in today's hearing. Without objection, so 
ordered.
    Having completed our business, we are adjourned. Thank you.
    [Whereupon, at 1:25 p.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
